Xl

C@QCKLE

2311 Douglas Street : E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga l B tiefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

Nos. 19-251 & 19-255

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, in his official capacity
as the Attorney General of California,
Respondent.

THOMAS MORE LAW CENTER,
Petitioner,
Vv.
XAVIER BECERRA, in his official capacity
as the Attorney General of California,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
PHILANTHROPY ROUNDTABLE, INDEPENDENT WOMEN’S FORUM, AND PEOPLE
UNITED FOR PRIVACY FOUNDATION AS AMICI CURIAE IN SUPPORT OF PETITIONERS
in the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5720 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 25th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘ Chk,
State of Nebraska ; LG .
My Commission Expires Nov 24, 2020 «

Notary Public Affiant

 

 

38524
